                                       SOCIAL SECURITY

MEMORANDUM

Date:      March 14, 2003                                                    Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Screening Representative Payees for Fugitive Warrants (A-01-02-12032)


           The attached final report presents the results of our audit. Our objective was to assess
           the use of fugitive warrant information as a screening tool for representative payees.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on our recommendations. If you wish to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.




                                                       James G. Huse, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



    SCREENING REPRESENTATIVE
           PAYEES FOR
       FUGITIVE WARRANTS


    March 2003      A-01-02-12032
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                               Executive Summary
OBJECTIVE

Our objective was to assess the use of fugitive warrant information as a screening tool
for representative payees (Rep Payee).

BACKGROUND

Some individuals cannot manage their finances because of their youth or mental and/or
physical impairments. Consequently, Congress granted the Social Security
Administration (SSA) authority to appoint Rep Payees to receive and manage these
individuals’ Social Security benefit payments. Congress, recognizing the potential for
Rep Payee mismanagement, requires that SSA exercise care in determining that a
Payee is needed, selecting a Rep Payee, and monitoring the Rep Payee’s
performance.

As a result of the fugitive provisions in section 202 of Public Law 104-193 (which was
enacted on August 22, 1996), SSA has agreements to obtain fugitive data from
Federal, State, and local law enforcement agencies to stop Supplemental Security
Income (SSI) payments under section 1611(e)(4) of the Social Security Act. On
October 7, 2002, SSA issued a new policy to address fugitive Rep Payees. However,
this policy only pertains to fugitive Rep Payees who are SSI recipients.

RESULTS OF REVIEW
We believe SSA should use fugitive warrant information to screen Rep Payees because
a fugitive felon may not be in the best position to manage a beneficiary’s funds. Based
on our analysis, we estimate that approximately 3,145 fugitives served as Rep Payees
and managed approximately $81.2 million in Social Security funds. Furthermore, we
estimate that, if not replaced, current fugitives will manage approximately $19.6 million
in Social Security benefits over the next year.

CONCLUSIONS AND RECOMMENDATIONS

SSA should use fugitive data as a screening tool for new Rep Payee applicants and to
re-evaluate the suitability of current Rep Payees to determine whether the fugitives
should be allowed to continue to serve as Payees.

SSA has set up a work group to establish policies for identifying and assessing the
suitability of SSI recipients suspended for being fugitives who are also serving as Rep
Payees. However, SSA has not addressed the issue of fugitive Rep Payees who are
not also SSI recipients. As a result, most fugitive Rep Payee cases will be a new




Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                                i
workload for SSA, but we believe resources should be expended to protect these
vulnerable beneficiaries from potential Rep Payee abuse.

We acknowledge the Agency’s support for the fugitive Rep Payee legislation that has
been introduced in Congress. However, to ensure that SSA’s efforts encompass all
fugitives serving as Rep Payees, we recommend SSA:

   §   enhance its current Rep Payee process to include fugitive felon data in its
       suitability determinations for new payee applicants, and

   §   periodically validate its Rep Payee file against fugitive warrant data to identify
       existing Rep Payees who are fugitives and re-evaluate their suitability.

AGENCY COMMENTS
SSA generally agreed with both of our recommendations. However, SSA plans to wait
for Congress to enact supportive legislation before implementing our recommended
changes to its current system. (See Appendix B for SSA's comments.)

OIG RESPONSE

We acknowledge the Agency’s support for the fugitive Rep Payee provisions in
section 103 of H.R. 743—which was introduced in Congress on February 12, 2003. We
urge SSA to implement our recommendations as soon as the legislation is enacted, or,
if not enacted during this congressional session, to reconsider its position to wait for
legislation.




Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                                  ii
                                                                      Table of Contents
                                                                                                                  Page


INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................5

    Sample Results..................................................................................................5

    ·    Fugitive Rep Payees’ Relationship with the Social Security
         Administration...............................................................................................6
    ·    Fugitives Serving as Rep Payees.................................................................7
    ·    Types of Rep Payees and Beneficiaries.......................................................8

    Legal Issues Affecting Matches of Fugitive and Rep Payee Data .....................9

    Fugitive Rep Payee Workload ...........................................................................9

    The Social Security Administration’s Efforts to Screen for Fugitive
    Rep Payees .....................................................................................................10

CONCLUSIONS AND RECOMMENDATIONS .....................................................12

APPENDICES

Appendix A – Sampling Methodology and Results

Appendix B – Agency Comments

Appendix C – OIG Contacts and Staff Acknowledgments




Screening Rep Payees for Fugitive Warrants (A-01-02-12032)
                                                                Acronyms
MRPF              Master Representative Payee File

OASDI             Old-Age, Survivors and Disability Insurance

OIG               Office of the Inspector General

POMS              Program Operations Manual System

Rep Payee         Representative Payee

SSA               Social Security Administration

SSI               Supplemental Security Income

SSN               Social Security Number




Screening Rep Payees for Fugitive Warrants (A-01-02-12032)
                                                                             Introduction
OBJECTIVE
Our objective was to assess the use of fugitive warrant information as a screening tool
for representative payees (Rep Payee).

BACKGROUND

Some individuals cannot manage their finances because of their youth or mental and/or
physical impairments. Congress granted the Social Security Administration (SSA) the
authority to appoint Rep Payees to receive and manage these individuals’ benefit
payments.1 Approximately 25 percent of Supplemental Security Income (SSI)
recipients and 10 percent of Old-Age, Survivors and Disability Insurance (OASDI)
beneficiaries have Rep Payees.2 A Rep Payee is a person, agency, organization, or
institution selected to receive and manage benefits on behalf of an incapable
beneficiary. Rep Payees are responsible for using Social Security benefits to serve the
beneficiary’s best interests. Their duties include
·     using benefits to meet the beneficiary’s current and foreseeable needs,
·     reporting any changes in circumstances that would affect their performance as a
      Rep Payee,
·     reporting events to SSA that may affect the beneficiary’s entitlement/eligibility or
      payment amount, and
·     completing a Representative Payee Report for all beneficiaries upon SSA’s
      request.3

SSA’s decision to make payment through a Rep Payee is significant because it
deprives the beneficiary of direct control over his or her finances and may affect his or
her manner of living. Congress, recognizing the potential for Rep Payee
                  4
mismanagement, requires that SSA exercise care in determining that a Payee is
needed, selecting a Rep Payee, and monitoring the Rep Payee’s performance.

While having a criminal history is not an absolute bar to serving as a Rep Payee, it is a
                                                     5
strong indication the individual may not be suitable. As a result, SSA periodically


1
    Social Security Act §§ 205(j) and 1631(a), 42 U.S.C. §§ 405(j) and 1383(a).
2
    SSA Publication No. 05-10076, A Guide For Representative Payees, April 1997, page 2.
3
    See 20 CFR §§ 404.2035 and 416.635.
4
    Social Security Act §§ 205(j) and 1631(a), 42 U.S.C. §§ 405(j) and 1383(a).
5
    Policy Instruction AM-02171.


Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                                   1
matches its Prisoner Update Processing System with its Master Representative Payee
File (MRPF) to identify incarcerated Rep Payees and assess their suitability. The
purpose of this project is to protect vulnerable beneficiaries from potential abuse by
Rep Payees. However, SSA does not have a similar procedure to identify and replace
Rep Payees who are fugitives. Although SSA issued a policy to address fugitive Rep
Payees on October 7, 2002, it only pertains to fugitive Rep Payees who are SSI
recipients.6 The new policy does not address the following two situations:
      1. fugitive Rep Payees who only receive OASDI benefit payments—not SSI
         payments or
      2. fugitive Rep Payees who do not receive SSI or OASDI benefits from SSA.

On August 22, 1996, the Personal Responsibility and Work Opportunity Reconciliation
Act of 1996 (Public Law 104-193) amended the Social Security Act to prohibit SSI
payments to fugitive felons. As a result, SSA entered into computer matching
                                                                     7
agreements with law enforcement agencies to identify fugitive data. However the
Privacy Act (as amended) does not permit SSA to use fugitive data to screen Rep
Payees for suitability because of the limited terms and current legal authority of SSA’s
                      8
fugitive agreements.

Although SSA staff informed us they perform suitability checks when there is any
activity or change in the status of a beneficiary who is also a Rep Payee, the Agency
does not have a specific policy to prohibit a fugitive from acting as another beneficiary’s
Rep Payee.9 However, legislation has been introduced in Congress which would
                                                       10
prohibit fugitive felons from serving as Rep Payees.

In July 2002, SSA formed a work group to analyze fugitive Rep Payee cases and
develop procedures for handling this workload.11 However, as of September 2002, this
work was still ongoing.



6
    Policy Instruction AM-02171.
7
 As of September 2002, SSA had agreements with the National Crime Information Center, the U.S.
Marshals Service, 25 States, and 4 local counties.
8
 See 5 U.S.C. §§ 522a(e)(1) and (o). The agreements between SSA and Federal, State and local law
enforcement jurisdictions state the primary purpose is to identify and assist in apprehending fugitive felons
who are receiving SSI payments, in violation of Section 1611(e)(4) of the Social Security Act.
9
 POMS, section GN 00504.100, provides instructions on when to consider the need for a new Rep Payee.
However, fugitive status is not specifically identified as a reason to replace a Rep Payee.
10
  H.R. 4070 was introduced in Congress in Calendar Year 2002; and section 103 of this bill contained
provisions related to fugitive Rep Payees. However, the bill was not signed into law before the
Congressional session ended. H.R. 743 was introduced in Congress on February 12, 2003.
11
  SSA identified approximately 6,500 fugitive felons serving as Rep Payees for 7,500 beneficiaries based
on a match between the MRPF and an extract of fugitive data from the Office of the Inspector General’s
(OIG) Allegation and Case Investigative System.

Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                                                  2
SCOPE AND METHODOLOGY
To accomplish our objective, we:

·    Researched SSA’s policies and procedures related to Rep Payee suitability.

·    Obtained a legal opinion from the Office of Counsel to the Inspector General on
     matching Rep Payee and fugitive data.

·    Obtained fugitive data from a sample of 10 States between February 1999 and
     May 2000.12

·    Verified each fugitive’s name, Social Security number (SSN), gender, and date of
     birth using SSA’s Enumeration Verification Service.

·    Matched the verified records from the 10 State fugitive files to SSA’s MRPF13 and
     identified 3,473 fugitive felons and/or parole or probation violators who appeared to
     be Rep Payees.

·    Selected a sample of 368 fugitive Rep Payees from the 3,473 records using a multi-
     stage proportional-to-size sampling design. (See Appendix A for details of our
     sampling methodology.)

We performed the following analysis for each of the 368 sample cases.

     §   Obtained the Master Beneficiary Record and/or Supplemental Security Record
         for each beneficiary who appeared to have a fugitive serving as his or her Rep
         Payee. Using these records, we determined whether the beneficiaries’ OASDI
         and/or SSI payments were paid to the fugitive Rep Payees.

     §   Confirmed with law enforcement agencies whether the warrant remained
         outstanding for Rep Payees who managed funds for Social Security
         beneficiaries.

     §   Calculated, for Rep Payees with outstanding warrants or Rep Payees who had
         warrants but were later arrested, the amount of Social Security funds managed
         and the number of months served as Rep Payees. This calculation started with
         the date of the warrant or the date the Rep Payee was selected (whichever was
         later) and ended in April 2002 (for outstanding warrants) or the date of arrest.

     §   Estimated the amount of benefits the fugitive will manage over the next
         12 months.

12
  The 10 states were Alabama, California, Colorado, Idaho, Illinois, Iowa, Maine, New Mexico, Oregon,
and Texas.
13
  The MRPF is a file of all Rep Payees. As of June 2001, it contained 5.25 million individuals serving as
Rep Payees.

Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                                                  3
   §   Ascertained the relationship between the Rep Payee and the beneficiary.

   §   Determined whether the beneficiary was under age 18.

We conducted our audit between April and September 2002 in Boston, Massachusetts,
and Baltimore, Maryland. We did not assess the suitability of the fugitives identified
during our audit nor did we conduct reviews of their Rep Payee activities to determine
whether the fugitives misused Social Security benefits. The entity audited was SSA’s
Office of Disability and Income Assistance Policy under the Deputy Commissioner for
Policy. We conducted our audit in accordance with generally accepted government
auditing standards.




Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                           4
                                                           Results of Review
We believe SSA should use fugitive warrant information to screen Rep Payees because
                                                                                  14
a fugitive felon may not be in the best position to manage a beneficiary’s funds.
Based on our analysis, we estimate that approximately 3,145 fugitives served as Rep
Payees and managed approximately $81.2 million in Social Security funds.
Furthermore, we estimate that, if not replaced, current fugitive felons will manage
approximately $19.6 million in SSI and OASDI benefit payments over the next
12 months.

SAMPLE RESULTS
From our statistical sample of 368 cases, we found

·    92 fugitives served
     as Rep Payees and
     managed                  Figure 1: Sample Results
     $2.4 million in
     Social Security
                                               25%    Fugitive Rep Payees (25%)
     funds for
                        15
     126 beneficiaries;
     (These 92 fugitives                              Individuals who no longer
     received payments     50%                        had outstanding warrants
     as Rep Payees                                    (25%)
     between 1 month                                  Individuals who were no
     and 157 months.                          25%
                                                      longer Rep Payees (50%)
     On average, the
     92 fugitives
     managed funds as
     Rep Payees for 53 months, or 4 ½ years.)

·    93 individuals were Rep Payees, but their warrants were no longer outstanding; and

·    183 individuals were no longer Rep Payees who managed funds for other
     beneficiaries.




14
  One factor SSA considers when selecting a Rep Payee is whether the potential Rep Payee is in a
position to know of and look after the needs of the beneficiary. See 20 CFR §§ 404.2020(e) and
416.620(e).
15
  The 126 beneficiaries are comprised of 73 OASDI, 47 SSI, and 6 concurrent beneficiaries. A
concurrent beneficiary is an individual entitled to receive both OASDI and SSI benefit payments.

Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                                         5
Most of the crimes
charged or
                           Figure 2: Type of Crimes Charged or Committed by
committed by the
fugitives involved         Fugitives Who are Rep Payees
drugs or parole
                                                           Drugs (32%)
and probation                                     32%
violations.                                                Robbery & Assault (8%)
Figure 2 shows the       47%
breakout of the                                            Other Felons (13%)
92 fugitive Rep                                            Parole & Probation Violations
Payees by type of                                8%        (47%)
crime. SSA should                           13%
consider the type
of crime committed
by the fugitives in conducting suitability reviews for these Rep Payees. Further, the
original crime committed by parole and probation violators may have been a
                16
misdemeanor.

Fugitive Rep Payees’ Relationship with the Social Security
Administration
Of the 92 fugitives who were Rep Payees and managed other beneficiaries’ funds, we
found that

·    65 were not
     receiving SSI or
     OASDI benefit             Figure 3: Type of Benefits Fugitive Rep
     payments from             Payees Receive from SSA Under Their
     SSA,                      Own SSN and not as a Rep Payee
·    3 were also                                                   Neither SSI nor OASDI benefits
     receiving SSI                                     3%          (70%)
     payments,                                            7%       SSI payments (3%)
·    6 were also
     receiving both           70%
                                                                   SSI & OASDI benefits (7%)
     SSI and OASDI                                          20%
     benefits, and                                                 OASDI Benefits (20%)

·    18 were also
     receiving OASDI
     benefits.




16
   During our audit, we did not obtain data describing the original crimes committed by parole or probation
violators.


Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                                                6
In December 2001, we submitted a proposal to SSA to modify its current SSI fugitive
agreement to include screening for Rep Payees when the agreement came up for
                         17
renewal in February 2002. At the time, SSA was not prepared to modify the
agreement because of the short time frame to approve the renewal. However, on
February 25, 2002, the Agency expressed a willingness to match internal SSI fugitive
data against its Rep Payee data (which could be done without a matching agreement).
In July 2002, SSA matched the fugitive data in the Allegation and Case Investigative
System with the Agency’s Rep Payee data and formed a work group to study the data
and develop procedures for processing this workload.

However, as illustrated in Figure 3, matching only internal SSI fugitive data with the
MRPF would identify 10 percent of the fugitive Rep Payees. The majority (90 percent)
of the fugitive Rep Payees in our sample did not receive SSI payments. Therefore, we
believe SSA needs to use the original fugitive files it receives from law enforcement—
which contain warrant information for all fugitives wanted by that particular agency—to
screen Rep Payees. This will ensure all fugitive Rep Payees are identified—not just
those Rep Payees receiving SSI payments.

Fugitives Serving as Rep Payees

The 92 fugitives in our sample who served as Rep Payees managed $1.1 million in SSI
funds and $1.3 million in OASDI funds.18 Additionally, we estimate these fugitive Rep
Payees will manage approximately $5 million in Social Security funds over the next
                                                         19
12 months if they are not replaced with alternate payees. Further details are
summarized by State in Table 1.




17
  Under subsection (o)(2)(C) of the Privacy Act (5 U.S.C. § 552a), matching agreements, which govern
the exchange of computerized data between agencies, shall not exceed 18 months. Further, under
subsection (o)(2)(D) of the Privacy Act, the agreement may be extended for up to another 12 months.
18
  The funds were managed between the warrant date or the date the Rep Payee was selected (whichever
was later) and April 2002 (for outstanding warrants) or the date of arrest.
19
  This estimate is the sum of each beneficiary’s SSI and/or OASDI payment for January 2002 multiplied
by 12 months—it presumes no change in eligibility during this time period. It also presumes the fugitive
will not be arrested and subsequently have his or her suitability assessed under SSA’s Prisoner-Rep
Payee match.

Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                                                 7
                        Table 1: Benefits Managed by Rep Payees

                                            Rep Payees
                                             Who Were        Beneficiaries
                                              Fugitives      Whose Funds
                                             Based on        Were Managed
                  Population     Sample     Confirmation      By Fugitive        SSA Funds
     State           Size         Size       of Warrant       Rep Payees          Managed
  Alabama              28           28              3               4            $    43,959
  California        1,390          123            41               51              1,204,270
  Colorado             92            8              0               0                      0
  Idaho                20           20              4               6                130,179
  Illinois            615           54            15               24                477,116
  Iowa                 77            7              2               7                 23,955
  Maine                 8            8              0               0                      0
  New Mexico           12           12              1               1                  7,166
  Oregon              249           22              7               8                 79,054
  Texas               982           86            19               25                385,042
  Total             3,473          368            92              126             $2,350,741

Types of Rep Payees and Beneficiaries
Of the 126 beneficiaries in our sample whose funds were managed by fugitive Rep
Payees, 29 were adults and 97 were under age 18. Additionally, most of the Rep
Payees were the beneficiary’s parents. Table 2 shows the relationship between the
Rep Payees and the beneficiaries whose funds were managed by these fugitives.

                  Table 2: Relationship of Rep Payees to Beneficiaries

             Relationship of the Rep        Number of             Percent of
             Payee to the Beneficiary      Beneficiaries         Beneficiaries
                   Mother                       84                    67
                   Father                       16                    13
                   Grandparent                    3                     2
                   Other Relative               10                      8
                   Spouse                         2                     2
                   Child                          3                     2
                   Other                          8                     6
                          Total                126                   100




Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                                   8
According to SSA’s guide for Rep Payees,20 almost all children under age 18 have Rep
Payees, and the Payee is usually a parent. However, we believe SSA should
determine whether fugitives are still suitable payees—even when the fugitives are the
beneficiaries’ parents.

For example, the mother of a beneficiary became a fugitive in March 1996 related to a
felony drug violation. She was a fugitive for over 21 months before SSA appointed her
as her son’s Rep Payee in December 1997. Since 1997, she has managed benefits
totaling more than $50,000, and, as of September 2002, she was still the Rep Payee.
We also estimate that she will manage an additional $13,000 over the next 12 months.
According to SSA’s records,21 the fugitive was using the beneficiary’s payments for
herself during 1998—not the beneficiary, and the beneficiary (who was under 18 years
of age) lived with his grandparents at that time—not his mother (the Rep Payee).
Nevertheless, SSA took no action to replace the Rep Payee with a more suitable Rep
Payee.

LEGAL ISSUES AFFECTING MATCHES OF FUGITIVE AND REP
PAYEE DATA
The Privacy Act does not allow SSA to simply match the fugitive data it receives from
law enforcement under the SSI program with the Agency’s Rep Payee data.22 The
Privacy Act contains guidelines that must be met when SSA and other Federal, State,
or local agencies share computerized data. Specifically, it prohibits the computerized
exchange of data without a matching agreement that complies with 5 U.S.C. § 552a(o).
SSA and law enforcement agencies need an agreement authorizing a match to identify
fugitives who are serving as Rep Payees—regardless of whether the fugitives receive
benefit payments under their own SSNs. SSA’s fugitive matching agreements for the
SSI program would need to be amended to specify Rep Payee screening as one of the
purposes of data sharing.23

FUGITIVE REP PAYEE WORKLOAD
Cases involving fugitive Rep Payees will be a new workload for SSA, but we believe
resources should be expended to protect these vulnerable beneficiaries from potential
Rep Payee abuse. Before the August 1996 SSI fugitive provisions, neither SSA nor its
OIG obtained fugitive data from law enforcement.24 Therefore, SSA did not have the
means to identify fugitives who were serving as Rep Payees nor did it have the ability to

20
     SSA Publication No. 05-10076, A Guide For Representative Payees, April 1997.
21
     This information was obtained from an SSA annotation on the beneficiary’s Master Beneficiary Record.
22
     See 5 U.S.C. § 552a(o).
23
  The 3,473 individuals identified for this audit could not be provided to (a) SSA to assess the fugitives’
suitability as Rep Payees or (b) law enforcement agencies to attempt arrest.
24
  This information only began being collected with the passage of Section 202 of Public Law 104-193,
which prohibits SSI payments to fugitive felons or parole/probation violators.

Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                                                    9
screen new Rep Payee applicants prior to their selection. However, over the past
2 years, the Agency has made great strides in obtaining fugitive data from law
enforcement for use under the SSI program.

Since SSA is now receiving fugitive data (and continues its efforts to identify and obtain
these data from all available sources), the Agency could add a routine match with the
MRPF as part of its operations. SSA could also develop a system to check a Rep
Payee applicant for fugitive warrants prior to selecting the Payee. Checking Rep Payee
applicants and existing Rep Payees for fugitive warrants, however, will create a new
workload for SSA that will have to be addressed within the Agency’s limited resources.
SSA and/or OIG staff resources would be needed to

   ·   renegotiate the current fugitive agreements to include screening for Rep Payee
       data;
   ·   match the fugitive data with the MRPF;
   ·   develop a system to check fugitive warrants for Rep Payee applicants;
   ·   confirm the warrants with law enforcement agencies;
   ·   assess the suitability of the fugitive Rep Payees identified by SSA;
   ·   locate new Rep Payees and process the Rep Payee applications for the
       beneficiaries whose Rep Payees are found to be unsuitable;
   ·   investigate potential misuse of Social Security funds by the fugitive Rep Payees;
       and
   ·   track, monitor, and follow up on the cases identified.

THE SOCIAL SECURITY ADMINISTRATION’S EFFORTS TO SCREEN
FOR FUGITIVE REP PAYEES
SSA has taken several steps to identify former SSI recipients who are fugitives and
continue to serve as Rep Payees. Specifically, SSA

   ·   formed a work group in July 2002 to develop a policy for screening fugitive Rep
       Payees,
   ·   matched an extract of the OIG Allegation and Case Investigative System with its
       Rep Payee data,
   ·   started development of a processing guide,
   ·   proposed to develop an Intranet site to control the fugitive Rep Payee screening
       workload, and
   ·   issued policy instructions to address fugitive Rep Payees who are identified
       through the SSI Fugitive Felon Program.

SSA is also continuing its efforts to obtain fugitive data from all available law
enforcement sources (for the SSI program), which could then be used to match with the
MRPF if the Agency’s fugitive agreements were amended to allow for such matches.

Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                               10
Additionally, in response to our October 2002 report, Identifying Representative Payees
Who Had Their Own Benefits Suspended Under the Fugitive Provisions of Public
Law 104-193 (A-01-02-12073), SSA agreed with our recommendations and initiated
assessments of the suitability of the fugitives identified during that audit who were also
SSI recipients.




Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                              11
                                                   Conclusions and
                                                  Recommendations
We believe individuals who have outstanding felony warrants may not be in the best
position to serve as Rep Payees for Socials Security funds. We acknowledge SSA’s
support for the fugitive Rep Payee legislation that has been introduced in Congress.
However, to ensure SSA’s efforts encompass all fugitives serving as Rep Payees—not
just those who are also SSI recipients—we recommend SSA:

   1. Enhance its current Rep Payee process to include fugitive felon data in its
      suitability determinations for new payee applicants.

   2. Periodically validate its Rep Payee file against fugitive warrant data to identify
      existing Rep Payees who are fugitives and re-evaluate their suitability.

AGENCY COMMENTS
SSA generally agreed with both of our recommendations. The Agency stated that using
fugitive felon data to evaluate the suitability of new and existing Rep Payees would
enhance the safeguards of its current process. However, SSA intends to wait for
Congress to enact supportive legislation before implementing our recommended
changes to its current system. (See Appendix B for SSA's comments.)

OIG RESPONSE
We acknowledge the Agency’s support for the fugitive Rep Payee provisions in
section 103 of H.R. 743—introduced in Congress on February 12, 2003. We urge SSA
to implement our recommendations as soon as the legislation is enacted, or, if not
enacted during this congressional session, to reconsider its position to wait for
legislation.




Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                                 12
                                                        Appendices




Screening Rep Payees for Fugitive Warrants (A-01-02-12032)
                                                                                     Appendix A
Sampling Methodology and Results
We obtained an extract from the Master Representative Payee File (MRPF) of all
individual representative payees as of June 2001 from the Social Security
Administration (SSA). We also obtained fugitive files from a random sample of
10 States.1 For each State, we verified each fugitive’s name, Social Security number
(SSN), gender, and date of birth using SSA’s Enumeration Verification Service to
ensure the fugitives’ identities agreed with SSA’s records. We then matched the
verified SSNs against our MRPF extract. The table below shows the number and type
of fugitive warrants provided by each State.

                        Date Fugitive File         Fugitives in                Type of Fugitive
                         Received from          Original State File           Warrants in State
            State             State                                                  File
    Alabama              January 2000                    4,295           Felons
    California2          May 2000                      246,138           Felons and misdemeanors
    Colorado             April 2000                     17,048           Felons
    Idaho                August 1999                       733           Felons
    Illinois             February 1999                 248,311           Felons and misdemeanors
    Iowa                 May 1999                       38,702           Felons and misdemeanors
    Maine                March 1999                      1,158           Felons
    New Mexico           February 1999                  37,706           Felons and misdemeanors
    Oregon               April 2000                    117,775           Felons
    Texas                February 1999                 362,0693          Felons and misdemeanors
    Total                                            1,073,935

Five of our 10 State fugitive files consisted of both felonies and misdemeanors.
Therefore, we had to separate the felonies from the misdemeanors based on the file’s
                         4
four-digit offense code.



1
 The 10 States were randomly selected from a population of 46 States (including the District of
Columbia). At the time of our initial review involving fugitives―in August 2000, the remaining five States
were unable to provide electronic fugitive data to us. One of our 10 States (South Dakota) was unable to
provide a fugitive file, so we randomly selected an alternate State (Alabama).
2
  The 10 States originally included Nebraska. However, we could not distinguish misdemeanors from
felonies for Nebraska, and California, the next alternate State in our sample, was substituted.
3
 We were only able to use 184,672 of the 362,069 Texas fugitive records because of incomplete or
duplicate (alias) information.
4
 Some States had a miscellaneous field on their fugitive files, which described the fugitive’s criminal
charges in detail. We reviewed this field to refine our classification of felonies and misdemeanors.


Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                                                A-1
Once we isolated the fugitive felons who were Rep Payees, we selected a random
sample of records from each State. If a State had fewer than 50 fugitive Rep Payees,
we reviewed all of the cases for that State; and for the States that had more than
50 records, we used proportion-to-size sampling. The table below shows the
population and sample size for each State.

                           Population      Proportion-to-Size
                           of Fugitives (population of State divided
                            Who were        by 3,405 subtotal of                    Sample
                                                population)
                  State    Rep Payees                                                Size
             California        1,390              0.408                               123
             Colorado             92              0.027                                 8
             Illinois            615              0.181                                54
             Iowa                 77              0.023                                 7
             Oregon              249              0.073                                22
             Texas               982              0.288                                86
                  Subtotal     3,405              1.000                               300
             Alabama                  28                      n/a                        28
             Idaho                    20                      n/a                        20
             Maine                     8                      n/a                         8
             New Mexico               12                      n/a                        12
             Grand Total           3,473                                                368

For those sample cases where SSA’s records showed the Rep Payees managed funds
for other beneficiaries, we contacted the responsible law enforcement agency to
confirm the fugitives were wanted on felony warrants or parole/probation violations. For
fugitives confirmed to be wanted on felony or parole/probation violation charges, we
calculated the amount of Social Security benefits managed by the Rep Payees.

We acknowledge that the inclusion of California in our sample, although chosen at
random, had the possibility of providing projected results larger than expected. In
                                                                                       5
consideration of this fact, we reduced the projections in this report by 28.8 percent.
We believe this 28.8 percent reduction ensures that the results are reasonable and
representative of the results that would be found in all 46 States.


5
  We believe OASDI and SSI beneficiary data is useful in assessing the impact the State of California
could have on our projected results. Using the data in Tables 5.K1 and 7.B1 in the Annual Statistical
Supplement-Social Security Bulletin-2001, we determined that (a) 14.03 million individuals received
OASDI and/or SSI benefits in the 10 States we sampled and (b) 45.95 million individuals received OASDI
and/or SSI benefits in the 46 States in our population. A straight-line projection of the 14.03 million to the
population of 46 States leads to an estimate of 64.53 million individuals who received OASDI and/or SSI
benefits. In comparing the actual number of individuals receiving OASDI and/or SSI benefits in the
46 States (45.95 million) to this estimate (64.53 million), we determined the actual number of individuals
receiving benefits was 71.2 percent of our estimate. Therefore, we adjusted our projected results to the
46 States accordingly.



Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                                                 A-2
We projected that approximately 3,145 fugitives served as Rep Payees, and these
fugitives managed approximately $81.2 million in Social Security benefits. We also
projected that current fugitive Rep Payees will manage $19.6 million over the next
12 months. Our sample results, projections and estimates are detailed in the following
tables.

                   Sample Results and Attribute Projections for
                          Fugitives Serving as Rep Payees
                                               Fugitives in
                                               Sample Who        Projection of
                                             Managed Social     Fugitives Who
                   Population Sample             Security     Managed Social
        State          Size         Size         Benefits     Security  Benefits
  Alabama                28           28               3                  3
  California          1,390          123              41                463
  Colorado               92             8              0                  0
  Idaho                  20           20               4                  4
  Illinois              615           54              15                171
  Iowa                   77             7              2                 22
  Maine                   8             8              0                  0
  New Mexico             12           12               1                  1
  Oregon                249           22               7                 79
  Texas                 982           86              19                217
  10 State Total      3,473          368              92
                      Projection to 46 States in Population           4,417
                                    Projection Lower Limit            3,652
                                     Projection Upper Limit           5,183
     Adjusted Projection to Reflect 28.8 Percent Reduction            3,145
   Note: All projections are at the 90-percent confidence level.




Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                          A-3
                     Sample Results and Dollar Projections for
                          Fugitives Serving as Rep Payees
                                                     Amount of          Dollar
                                                  Social Security    Projection of
                                                      Benefits      Social Security
                                                    Managed by         Benefits
                    Population        Sample        Fugitive Rep      Managed by
        State           Size            Size          Payees           Fugitives
  Alabama                   28             28       $ 43,959         $     43,959
  California            1,390             123        1,204,270         13,609,232
  Colorado                  92              8                 0                  0
  Idaho                     20             20          130,179            130,179
  Illinois                 615             54          477,116          5,433,816
  Iowa                      77              7           23,955            263,505
  Maine                      8              8                 0                  0
  New Mexico                12             12             7,166              7,166
  Oregon                   249             22           79,054            894,746
  Texas                    982             86          385,042          4,396,641
  10 State Total        3,473             368       $2,350,741
                          Projection to 46 States in Population      $113,984,522
                                        Projection Lower Limit        $20,253,834
                                         Projection Upper Limit      $207,715,210
         Adjusted Projection to Reflect 28.8 Percent Reduction        $81,156,980
   Note: All projections are at the 90-percent confidence level.

The funds listed in the table above were managed by fugitives serving as Rep Payees
between the fugitive’s warrant date or the date the fugitive was selected as a Rep
Payee (whichever was later) and April 2002 (for outstanding warrants) or the date the
fugitive was arrested. The time periods fugitives were paid as Rep Payees ranged from
a low of 1 month to a high of 157 months (13 years). On average, the 92 fugitives
managed funds as Rep Payees for 53 months, or 4 ½ years.




Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                        A-4
              Estimate of Future Funds Managed by Fugitive Rep Payees
                                       Fugitive Rep Monthly SSA      Projection of
                                          Payees         Payment to  Monthly SSA
                                         Managing         Fugitives  Payments to
                Population Sample Benefits as of           During      Fugitives
     State         Size        Size    January 2002 January 2002        During
                                                                     January 2002
Alabama                28        28              2         $ 1,453      $ 1,453
California          1,390      123              38          22,608        255,486
Colorado               92         8              0               0              0
Idaho                  20        20              3           2,163          2,163
Illinois              615        54              9           7,729         88,025
Iowa                   77         7              2           1,145         12,595
Maine                   8         8              0               0              0
New Mexico             12        12              1             226            226
Oregon                249        22              5           2,707         30,637
Texas                 982        86             15           9,404        107,381
10 State            3,473      368              75         $47,435      $497,966
Total
                             Projection to 46 States in Population    $2,290,645
                                            Projection Lower Limit      $536,695
                                            Projection Upper Limit    $4,044,594
        Annualized 10 Sample State Total (State Total X 12 Months)     $5,975,592
                                                                   6
       Annualized Estimate for 46 States (Projection X 12 Months)    $27,487,740
                                                                   7
           Adjusted Projection to Reflect 28.8 Percent Reduction     $19,571,271
 Note: All projections are at the 90-percent confidence level.




 6
     This is a non-statistical estimate.
 7
     This is a non-statistical estimate.


 Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                    A-5
                                                             Appendix B
Agency Comments




Screening Rep Payees for Fugitive Warrants (A-01-02-12032)
                                           SOCIAL SECURITY

MEMORANDUM                                                                            32112-24-894


Date:      February 28, 2003                                                          Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye     /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Screening Representative Payees for Fugitive
           Warrants” (A-01-02-12032)—INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comments on the report content and
           recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Trudy Williams on extension 50380.

           Attachment:
           SSA Response




           Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                                    B-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE OFFICE OF
THE INSPECTOR GENERAL (OIG) DRAFT REPORT, “SCREENING REPRESENTATIVE
PAYEES FOR FUGITIVE WARRANTS” (A-01-02-12032)


Thank you for the opportunity to review and comment on the subject draft report.
SSA supports legislation (H.R. 4070) introduced in the 107th Congress that would disqualify
individuals from serving as Rep Payees upon conviction of offenses resulting in imprisonment
for more than one year or if the individual had fugitive felon status. (A similar bill, H.R. 743,
was introduced in the 108th Congress.) The recommendations address some of the same
concerns as this legislation in terms of providing further safeguards against misuse for those
individuals who need a representative payee. The following are our comments to the specific
recommendations:

Recommendation 1

SSA should enhance its current Representative Payee (Rep Payee) process to include fugitive
felon data in its suitability determinations for new payee applicants.

Comment

We agree. Using fugitive felon data to evaluate the suitability of new and existing
Representative Payees would enhance the safeguards of the current process. However, we
believe a better and more efficient course is to make these changes to our current process only
after the Congress enacts supportive legislation.

Recommendation 2

SSA should periodically validate its Rep Payee file against fugitive warrant data to identify
existing Rep Payees who are fugitives and re-evaluate their suitability.

Comment

We agree. The comments to recommendation one above also apply to this recommendation.



[In addition to the items listed above, SSA also provided technical comments which
have been addressed in this report.]




Screening Rep Payees for Fugitive Warrants (A-01-02-12032)                                          B-2
                                                                        Appendix C
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Director, Northern Audit Division, (617) 565-1819

   Judith Oliveira, Deputy Director, (617) 565-1765

Staff Acknowledgments

In addition to those names above:

   Joe Borowy, Auditor

   Jeffrey Brown, Auditor

   Kevin Joyce, Senior Auditor

   Joe LoVecchio, Auditor


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-01-02-12032.




Screening Rep Payees for Fugitive Warrants (A-01-02-12032)
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                 Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systems security; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA, as well as
conducting investigations of OIG employees, when necessary. Finally, OEO administers OIG’s
public affairs, media, and interagency activities, coordinates responses to Congressional requests
for information, and also communicates OIG’s planned and current activities and their results to
the Commissioner and Congress.

                                      Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
                      DISTRIBUTION SCHEDULE

Commissioner of Social Security
Income Maintenance Branch, Office of Management and Budget
Chairman, Committee on Ways and Means
Ranking Minority Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman, Subcommittee on Social Security
Ranking Minority Member, Subcommittee on Social Security
Majority Staff Director, Subcommittee on Social Security
Minority Staff Director, Subcommittee on Social Security
Chairman, Subcommittee on Human Resources
Ranking Minority Member, Subcommittee on Human Resources
Chairman, Committee on Budget, House of Representatives
Ranking Minority Member, Committee on Budget, House of Representatives
Chairman, Committee on Government Reform and Oversight
Ranking Minority Member, Committee on Government Reform and Oversight
Chairman, Committee on Governmental Affairs
Ranking Minority Member, Committee on Governmental Affairs
Chairman, Committee on Appropriations, House of Representatives
Ranking Minority Member, Committee on Appropriations,
 House of Representatives
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman, Committee on Appropriations, U.S. Senate
Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate
Chairman, Committee on Finance
Ranking Minority Member, Committee on Finance
Chairman, Subcommittee on Social Security and Family Policy
Ranking Minority Member, Subcommittee on Social Security and Family Policy
Chairman, Senate Special Committee on Aging
Ranking Minority Member, Senate Special Committee on Aging
President, National Council of Social Security Management Associations,
  Incorporated
Treasurer, National Council of Social Security Management Associations,
  Incorporated
Social Security Advisory Board
AFGE General Committee
President, Federal Managers Association
Regional Public Affairs Officer
